1a
Appendix A

Case: 20-1195

Document: 47

Page: 1

Filed: 12/31/2020

NOTE: This disposition is nonprecedential.

United States Court of Appeals
for the Federal Circuit
______________________
NETSOC, LLC,
Plaintiff-Appellant
v.
MATCH GROUP, LLC, PLENTYOFFISH MEDIA
ULC, HUMOR RAINBOW, INC.,
Defendants-Appellees
______________________
2020-1195
______________________
Appeal from the United States District Court for the
Northern District of Texas in No. 3:18-cv-01809-N, Judge
David C. Godbey.
----------------------------------------------------------------NETSOC, LLC,
Plaintiff-Appellant
v.
QUORA, INC.,
Defendant-Appellee
______________________
2020-1430
______________________

2a

Case: 20-1195

Document: 47

Page: 2

Filed: 12/31/2020

Appeal from the United States District Court for the
Northern District of California in No. 3:19-cv-06518-VC,
Judge Vince Chhabria.
______________________
Decided: December 31, 2020
______________________
WILLIAM PETERSON RAMEY, III, Ramey & Schwaller,
LLP, Houston, TX, argued for plaintiff-appellant.
ROBERT L. GREESON, Norton Rose Fulbright US LLP,
Dallas, TX, argued for defendants-appellees in 2020-1195.
Also represented by STEPHANIE DEBROW, Austin, TX; ERIK
OWEN JANITENS, Houston, TX.
STEVEN MOORE, Kilpatrick Townsend & Stockton LLP,
San Francisco, CA, argued for defendant-appellee in 20201430. Also represented by RICHARD W. GOLDSTUCKER, Atlanta, GA; JORDAN TRENT JONES, Menlo Park, CA; MEGAN
ELIZABETH BUSSEY, New York, NY.
______________________
Before TARANTO, CHEN, and STOLL, Circuit Judges.
STOLL, Circuit Judge.
NetSoc, LLC appeals the United States District Court
for the Northern District of Texas’s dismissal of certain patent infringement allegations against Match Group, LLC,
PlentyofFish Media ULC, and Humor Rainbow, Inc. (collectively, “Match”), and the United States District Court for
the Northern District of California’s dismissal of certain
patent infringement allegations against Quora, Inc. The
Texas district court held the asserted claims of NetSoc’s
U.S. Patent No. 9,978,107 ineligible under 35 U.S.C. § 101,
and the California district court similarly held the asserted
claims of NetSoc’s related U.S. Patent No. 9,218,591

3a

Case: 20-1195

Document: 47

Page: 3

Filed: 12/31/2020

ineligible under 35 U.S.C. § 101. We conclude that the
claims of both the ’107 and ’591 patents are directed to patent-ineligible subject matter. Accordingly, we affirm the
decisions of both district courts.
BACKGROUND
I
NetSoc sued Match for infringing all claims of the
’107 patent and sued Quora for infringing all claims of the
’591 patent. The ’107 patent is a continuation of the
’591 patent (collectively, the “asserted patents”), and the
asserted patents share a common specification. 1 The asserted patents relate to “a system and method for establishing and using a social network to facilitate people in life
issues.” ’107 patent col. 1 ll. 40–41. For example, the invention of the asserted patents addresses “problems and
concerns that arise when individuals or families travel or
relocate,” such as “logistic problems, problems arising with
assimilating family members in a community, and . . .
roommate pairings.” Id. at col. 2 ll. 6–12.
The specification discloses a computer system and
methods that maintain a list “of participants who can assist in resolving issues at [a] particular geographic location.” Id. at col. 2 ll. 21–23. A user may submit an inquiry
related to a selected category of those issues. Id. at col. 2
ll. 24–30. That inquiry can be sent as a message to participants either through a service or directly to a participant
selected by the user. Id. at col. 2 ll. 28–47. Users are “enabled to communicate with the selected participant(s) over
an online medium,” such that contact information of the
participants “may be shielded from the user,” id. at col. 8
ll. 50–58, or “blind” connections may be formed between

When referencing the common specification, we cite
to the ’107 patent.
1

4a

Case: 20-1195

Document: 47

Page: 4

Filed: 12/31/2020

users and participants, id. at col. 13 ll. 18–20. The performance of participants may be tracked by:
(i) timing how long it takes for the identified issue
resolver [(i.e., a participant)] to get back to the user,
(ii) if subsequent communications are exchanged
between user and issue resolver, timing the responsiveness of the issue resolver to each user communication, (iii) receiving feedback from the user on
how well the issue resolver resolved the user’s issue, [or] (iv) other objective or subjective criteria for
determining the effectiveness of the issue resolver
for the user.
Id. at col. 9 ll. 60–67.
II
Match moved the Texas district court to dismiss
NetSoc’s complaint, arguing that the ’107 patent claimed
patent-ineligible subject matter under § 101. The district
court granted Match’s motion, concluding that the claims
of the ’107 patent are directed to an abstract idea, and that
they fail to articulate an inventive concept. NetSoc, LLC
v. Match Grp., LLC, No. 3:18-CV-01809-N, 2019 WL
3304704, at *3 (N.D. Tex. July 22, 2019). Particularly, the
district court explained that the claims “are predicated on
presenting results of data collection and analysis” and do
not “require[] anything other than conventional computer
hardware.” Id. at *2–3. Similarly, Quora moved the California district court to dismiss NetSoc’s complaint, arguing
that the ’591 patent claimed patent-ineligible subject matter under § 101. There, the district court granted Quora’s
motion, determining that the claims of the ’591 patent are
directed to “the abstract idea of a social network,” and that
the claims’ purported improvements to that social network
“do not transform the idea into a patent-eligible application.” NetSoc, LLC v. Quora, Inc., No. 19-CV-06518-VC,
2020 WL 415919, at *1 (N.D. Cal. Jan. 27, 2020).

5a

Case: 20-1195

Document: 47

Page: 5

Filed: 12/31/2020

NetSoc appeals both decisions. These cases were consolidated on appeal for oral argument. We have jurisdiction pursuant to 28 U.S.C. § 1295(a)(1).
DISCUSSION
We apply regional circuit law when reviewing a district
court’s dismissal for failure to state a claim. XY, LLC
v. Trans Ova Genetics, LC, 968 F.3d 1323, 1329 (Fed. Cir.
2020). Both the Fifth Circuit and the Ninth Circuit review
such dismissals de novo, accepting all well-pleaded facts as
true and viewing those facts in the light most favorable to
the plaintiff. Shakeri v. ADT Sec. Servs., Inc., 816 F.3d
283, 290 (5th Cir. 2016); Yagman v. Garcetti, 852 F.3d 859,
863 (9th Cir. 2017).
I
Section 101 defines patent-eligible subject matter as
“any new and useful process, machine, manufacture, or
composition of matter, or any new and useful improvement
thereof.” 35 U.S.C. § 101. The Supreme Court has held
that this provision contains an important exception: “Laws
of nature, natural phenomena, and abstract ideas are not
patentable.” Alice Corp. v. CLS Bank Int’l, 573 U.S. 208,
216 (2014) (quoting Ass’n for Molecular Pathology v. Myriad Genetics, Inc., 569 U.S. 576, 589 (2013)).
“[T]he Supreme Court articulated a two-step test for
examining patent eligibility when a patent claim is alleged
to involve one of these three types of subject matter.” CardioNet, LLC v. InfoBionic, Inc., 955 F.3d 1358, 1367
(Fed. Cir. 2020); see Alice, 573 U.S. at 217–18. The first
step of the Alice test requires a court to “determine whether
the claims at issue are directed to a patent-ineligible concept.” Alice, 573 U.S. at 218. “[T]he claims are considered
in their entirety to ascertain whether their character as a
whole is directed to excluded subject matter.” McRO, Inc.
v. Bandai Namco Games Am. Inc., 837 F.3d 1299, 1312
(Fed. Cir. 2016) (quoting Internet Pats. Corp. v. Active

6a

Case: 20-1195

Document: 47

Page: 6

Filed: 12/31/2020

Network, Inc., 790 F.3d 1343, 1346 (Fed. Cir. 2015)). If the
claims are directed to a patent-ineligible concept, the second step of the Alice test requires a court to “examine the
elements of the claim to determine whether it contains an
‘inventive concept’ sufficient to ‘transform’ the claimed abstract idea into a patent-eligible application.” Alice,
573 U.S. at 221 (quoting Mayo Collaborative Servs. v. Prometheus Labs., Inc., 566 U.S. 66, 72, 78–79 (2012)). “This
inventive concept must do more than simply recite ‘wellunderstood, routine, conventional activity.’” FairWarning
IP, LLC v. Iatric Sys., Inc., 839 F.3d 1089, 1093 (Fed. Cir.
2016) (quoting Mayo, 566 U.S. at 79–80).
II
We first consider the claims of the ’107 patent. Though
we consider each claim for purposes of our § 101 analysis,
we duplicate claim 1 here as an illustrative claim.
1. A method for establishing a social network, the
method being implemented on a network computer
system and comprising:
maintaining a list comprising a plurality of participants, wherein each participant in the plurality of
participants corresponds to one or more individuals, wherein the list also includes information associated with at least one of each participant or the
one or more individuals that correspond to each
participant;
presenting a user with an interface from which the
user makes a selection of a category from a plurality of categories;
in response to receiving the selection of the category by the user,
displaying, for the user, some of the information associated with each of multiple participants from
the plurality of participants which match the

7a

Case: 20-1195

Document: 47

Page: 7

Filed: 12/31/2020

selection of the category by the user, while shielding contact information associated with each of the
multiple participants;
wherein displaying some of the information associated with each of the multiple participants is based
at least in part on a rating of individual participants in the plurality of participants;
enabling the user to send an inquiry message to one
or more of the multiple participants, while shielding the contact information from the user, the contact information including any messaging
identifier that is associated with each of the one or
more participants;
tracking a response time of each of the one or more
participants who received the message from the
user; and
updating the rating associated with each of the one
or more participants based at least in part on the
tracked response time.
’107 patent col. 17 ll. 15–48.
We determine that, under Alice step one, the claims of
the ’107 patent are directed to the abstract idea of automating the conventional establishment of social networks to allow humans to exchange information and form
relationships. The ’107 patent claims recite steps for establishing a social network on a computer. The ’107 patent
specification acknowledges that social networks are a
longstanding practice and that, “[u]nder a current approach, . . . a human resource department, or other internal relocation departments,” may “facilitate the entire
arduous process of relocation.” Id. at col. 10 ll. 16–19. It
goes on to explain that without support from these departments, someone “may spend a great deal of time conducting
research through generic sources,” but would ultimately
have “no assistance, or guidance, other than other general

8a

Case: 20-1195

Document: 47

Page: 8

Filed: 12/31/2020

non-personal assistance.” Id. at col. 11 ll. 6–17. Thus, in
providing “access to a software suit[e]” to overcome not
having this assistance in the relocation process, id.
at col. 11 ll. 20–21, the invention claimed in the ’107 patent
“qualifies as an ‘abstract idea’ for which computers are invoked merely as a tool,” Enfish, LLC v. Microsoft Corp.,
822 F.3d 1327, 1336 (Fed. Cir. 2016); see also Credit Acceptance Corp. v. Westlake Servs., 859 F.3d 1044, 1055
(Fed. Cir. 2017) (“[M]ere automation of manual processes
using generic computers does not constitute a patentable
improvement.”).
Moreover, the claimed invention of establishing a social
network is an abstract idea “pertaining to methods of organizing human activity.” In re TLI Commc’ns LLC Pat.
Litig., 823 F.3d 607, 613 (Fed. Cir. 2016) (citing Intellectual
Ventures I LLC v. Cap. One Bank (USA), 792 F.3d 1363,
1367 (Fed. Cir. 2015) (finding the claim at issue “not meaningfully different from the ideas found to be abstract in
other cases before the Supreme Court and our court involving methods of organizing human activity”)). Namely,
“maintaining” a list of participants, “presenting” a user
with selectable categories, “displaying” participant information based on the selected category, “shielding” contact
information, “enabling” the user to send a message to participants, “tracking” a response time of participants, and
“updating” participant ratings are all human activities
that the claims more efficiently organize by applying them
to a “network computer system.” ’107 patent col. 17
ll. 15–48.
At Alice step two, we do not discern “an ‘inventive concept’ sufficient to ‘transform’ the claimed abstract idea into
a patent-eligible invention.” Alice, 573 U.S. at 221 (quoting
Mayo, 566 U.S. at 72, 78–79). The claim limitations fail to
add a technological improvement to the computer or otherwise provide “something more” to “transform” the claims.
See id. at 217. Rather, the ’107 patent claims are quintessential “apply it with a computer” claims. See id. at 223

9a

Case: 20-1195

Document: 47

Page: 9

Filed: 12/31/2020

(“Stating an abstract idea while adding the words ‘apply it
with a computer’ simply combines those two steps, with the
same deficient result.”).
We find unpersuasive NetSoc’s arguments that the
“rating” limitations—“tracking a response time of each of
the one or more participants who received the message
from the user” and “updating the rating associated with
each of the one or more participants based at least in part
on the tracked response time,” ’107 patent col. 17
ll. 43–48—render the claims patent eligible. Neither tracking a participant’s response time nor using that response
time to update a participant’s rating represents a technological improvement that would render the claims non-abstract. Indeed, the specification discloses that, without the
invention, a “human resource department” can handle the
“entire arduous process of relocation,” see id. at col. 10
ll. 17–19, which would include making judgments about
who might be a good source of information based on response time. Nor do the “rating” limitations, or any other
limitation, otherwise provide an inventive concept that
transforms the claims into an eligible application.
II
We next consider the claims of the ’591 patent. Again,
though we consider each claim for purposes of our § 101
analysis, we duplicate claim 1 here as an illustrative claim.
1. A method for establishing a social network, the
method comprising:
maintaining a list comprising a plurality of participants, wherein each participant in the plurality of
participants corresponds to one or more individuals, wherein the list also includes information associated with at least one of each participant or the
one or more individuals that correspond to each
participant;

10a

Case: 20-1195

Document: 47

Page: 10

Filed: 12/31/2020

presenting a user with a plurality of categories
from which the user may make a selection of a category from the plurality of categories;
receiving the selection of the category by the user;
in conjunction with the selection of the category, receiving an electronic communication from the user
for an unidentified respondent, wherein the electronic communication contains an inquiry of the
user;
after receiving the selection of the category by the
user, selecting one or more participants from the
list to receive the electronic communication,
wherein selecting is based at least in part on the
selection of the category or the information associated with at least one of each participant or the one
or more individuals that correspond to each participant;
sending the inquiry to the selected one or more participants;
receiving a response to the inquiry from the selected one or more participants, the response from
each of the one or more participants including biographical information about that participant;
publishing at least a portion of the response from
each of the selected one or more participants for
other users to view, wherein publishing is performed without identifying the user but includes
providing biographical information about the participant who provided the response;
tracking feedback for each of the selected one or
more participants based at least in part on the published portion of the response, including determining a rating from the user for at least one of the
selected one or more participants.

11a

Case: 20-1195

Document: 47

Page: 11

Filed: 12/31/2020

’591 patent col. 16 l. 63–col. 17 l. 34.
We conclude that the claims of the ’591 patent are also
directed to an abstract idea under Alice step one. As with
the claims of the related ’107 patent, the ’591 patent claims
are directed to automating the longstanding practice of establishing a social network to allow humans to exchange
information and form relationships. The claim limitations
of “maintaining” a list of participants, “presenting” a user
with selectable categories, “receiving” the user’s category
selection, “receiving” an inquiry from the user, “selecting”
a participant to receive the user’s inquiry, “sending” the inquiry to the participant, “receiving” a response to the inquiry from the participant, “publishing” the response, and
“tracking” feedback of the participants, ’591 patent col. 16
l. 63–col. 17 l. 34, are directed to automating a longstanding, well-known method of organizing human activity, similar to concepts previously found to be abstract. See In re
TLI Commc’n LLC Pat. Litig., 823 F.3d at 613; see also Intellectual Ventures I LLC, 792 F.3d at 1367.
Turning to Alice step two, we also do not discern “an
‘inventive concept’ sufficient to ‘transform’ the claimed abstract idea into a patent-eligible application.” Alice,
573 U.S. at 221 (quoting Mayo, 566 U.S. at 72). As with
the ’107 patent claims, the ’591 patent claims are quintessential “apply it with a computer” claims. See id. at 223.
We are unpersuaded by NetSoc’s arguments that the “rating” limitation in the ’591 patent recites an improvement
to the underlying technology and thus renders the claims
patent eligible. Contrary to NetSoc’s contention, the limitation “tracking feedback for each of the selected one or
more participants based at least in part on the published
portion of the response, including determining a rating
from the user for at least one of the selected one or more
participants,” ’591 patent col. 17 ll. 30–34, is itself directed
to an abstract idea. As we have held, “[t]he abstract idea
itself cannot supply the inventive concept.” Trading Tech.
Int’l, Inc. v. IBG LLC, 921 F.3d 1378, 1385 (Fed. Cir. 2019)

12a

Case: 20-1195

Document: 47

Page: 12

Filed: 12/31/2020

(citing SAP Am., Inc. v. InvestPic, LLC, 898 F.3d 1161,
1171 (Fed. Cir. 2018)).
CONCLUSION
We have considered NetSoc’s remaining arguments, including its arguments that the district courts erred by ignoring factual issues precluding a determination of
ineligibility at the Rule 12(b)(6) stage, and find them unpersuasive. For the foregoing reasons, we affirm both district courts’ decisions to dismiss, as the asserted patents
claim unpatentable subject matter.
AFFIRMED
COSTS
No costs.

